NO.

IN THE
SUPREME COURT OF THE UNITED STATES

KRISTOPHERLOVE
Petitioner,
v.
THE STATE OF TEXAS,
Respondent,
ON PETITION FOR A WRIT OF CERTIORARI TO
THE TEXAS COURT OF CRIMINAL APPEALS
PETITION FOR WRIT OF CERTIORARI
John Tatum
Walnut Hill Tower
8411 Walnut Hill Lane
Suite 1190
Dallas, Texas 75032
(972) 705-9200
SBOT# 19672500
jtatumlaw@gmail.com
Attorney of Record

CAPITAL CASE
QUESTIONS PRESENTED
L

Whether Texas' Court of Criminal Appeals, the only court of last resort
reviewing direct appeals in death penalty cases has decided an important
federal question concerning a racially biased juror being allowed on a
capital death penalty jury in violation of Petitioner's rights under the
Sixth and Fourteenth Amendments to the United States Constitution.

II. Whether Texas' Court of Criminal Appeals, the only court of last resort
reviewing direct appeals in death penalty cases has decided an important
federal question concerning a racially biased juror in a way that conflicts
with relevant decisions of this Court in violation of Petitioner's rights
under the Sixth and Fourteenth Amendments to the United States
Constitution.

11

RULE 29.6 STATEMENT
Petitioner is not a corporate entity.
LIST OF PARTIES
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
IDENTITIES OF PARTIES AND COUNSEL
HONORABLE TRACY F. HOLMES

JUDGE PRESIDING
363^ JUDICIAL DISTRICT COURT
OF DALLAS COUNTY, TEXAS

KRISTOPHERLOVE
TDC#00999614
Polunsky Unit
3 872 FM 350 South
Livingston, Texas 77351

APPELLANT

HONORABLE PAUL JOHNSON
900 Jackson St., Suite 650
Dallas, Texas 75202
SBOT#10778230

ATTORNEY FOR APPELLANT

HONORABLE LALON C. PEALE
3800 Maple Avenue, Suite 350
Dallas, Texas 75219
SBOT# 15680400

ATTORNEY FOR APPELLANT

HONORABLE KOBBY WARREN
777 Main Street, Suite 600
Dallas, Texas 75219
SBOT# 24028113

ATTORNEY FOR APPELLANT

111

HONORABLE JOHN TATUM
Walnut Glen Tower
8144 Walnut Hill Lane Suite 1190
Dallas, Texas 75231
SBOT# 19672500

ATTORNEY FOR APPELLANT
ON APPEAL

HONORABLE KEVIN BROOKS
SBOT#03070735
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

ATTORNEY FOR THE STATE
OF TEXAS

HONORABLE GLEN FITZMARTIN
SBOT#90001438
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

ATTORNEY FOR THE STATE
OF TEXAS

HONORABLE LAQUITA LONG
SBOT# 24044340
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

ATTORNEY FOR THE STATE
OF TEXAS

HONORABLE JUSTIN LORD
SBOT# 24030507
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

ATTORNEY FOR THE STATE
OF TEXAS

HONORABLE ROBBIE PFEIFFER
SBOT# 24053421
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

ATTORNEY FOR THE STATE
OF TEXAS

HONORABLE JACLYN O'CONNOR LAMBERT ATTORNEY FOR THE
SBOT# 24049262
OF TEXAS ON APPEAL
Frank Crowley Courts Building
133 N. Riverfront Blvd.
Dallas, Texas 75207-4399

TABLE OF CONTENTS
QUESTIONS PRESENTED

ii

RULE 29.6 STATEMENT

iii

IDENTITIES OF PARTIES AND COUNSEL
TABLE OF AUTHORITIES

iii-vi
vii-viii

OPINIONS BELOW

1

JURISDICTION

2

STATEMENT OF THE CASE/PROCEDURAL HISTORY

2-3

FACTS RELEVANT TO THE QUESTIONS RAISED IN THIS APPLICATION
FOR WRIT OF CERTIORARI
3-6
REASONS FOR GRANTING THE PETITION

6-13

This Court should grant certiorari to determine whether the Texas Court of
Criminal Appeals, the only court of appeal in a death penalty case can allow a
racially prejudiced juror to be placed on a jury over the defense's challenge for
cause thereby denying Petitioner his Sixth amendment right to a fair trial by an
unconstitutionally selected jury and due process of law in violation of the
Fourteenth Amendment. Petitioner submits that this issue is sufficiently
important in terms of its nationwide relevance or impact of having a racially
biased white juror on a death penalty jury, where the defendant is of the black
race in today's racially charged environment.
CONCLUSION

14

APPENDLX A- Opinion of the Texas Court of Criminal Appeals

16

VI

TABLE OF AUTHORITIES CITED
FEDERAL CASES:

Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69

11

Caldwell, supra, at 343, 105 S.Ct, at 2647

10

California v. Ramos, 463 U.S. 992, 998-999, 103 S.Ct 3446, 77 L.Ed.2d 1171
(1983)

10

Faretta v. California, 422 U.S. 806 95 S.Ct. 2525, 45 L.Ed.2d. 562 (1977)

12

Ham v. South Carolina, 409 U.S. 524, 93 S.Ct. 848, 35 L.Ed.2d 46

11

Mclaughlin v. Florida, 379 U.S. 184, 192, 85 S.Ct. 283, 13 L.Ed. 222
Neat v. Delaware, 103 U.S. 370, 26 L.Ed. 567
Pena Rodriguez v. Colorado, 137 S.Ct 855 (2017)
Powers v. Ohio, 499 U.S. 400, 411, 111 S.Ct 1364, 113 L.Ed.2d4311.
Pp 867-868

7,11
11
10,13
8,11

Ramos v. Louisiana, 140 S.Ct. 1300 (2020)

7

Ristamo v. Ross, 424 U.S. 589, 96 S.Ct 1017, 47 L.Ed.2d 258 (1976)

8

Rosales-Lopez, supra, at 195, 101 S.Ct 1629
Rose v. Mitchell, 443 U.S. 545, 555, 99 S.Ct. 2993, 61 L.Ed.2d 739
Strauder v. West Virginia, 100 U.S. 303, 305-309, 25 L.Ed. 664
Turner v. Murray, 106 S.Ct 1683 (1986)
United States v. Martinez-Salazar, 528 U.S. 304 (2000)
vii

8,9
7,11
11
9
12

FEDERAL STATUTES, RULES:
28 U.S.C. ยง 1257(a)
STATE CASES:

2

Anderson v. State 633 S.W.2d 851 (Tex. Grim. App. 1982)

12

Brandon v. State, 599 S.W. 2d 567 (Tex. Grim. App. 1979)

12

Williams v. State, 565 S.W.2d 63 (Tex. Grim. App. 1978)

12

STATE STATUTES, RULES, OTHER:
Tex. Code Crim.Proc.Ann. art. 37.071,ยง 2(g)(Vernon Supp. 2001)
Texas Article 35,16 Code of Criminal Procedure

Vlll

3
11

IN THE
SUPREME COURT OF THE UNITED STATES

KRISTOPHERLOVE
Petitioner,

v.
THE STATE OF TEXAS,
Respondent,

ON PETITION FOR A WRIT OF CERTIORARI TO
THE TEXAS COURT OF CRIMINAL APPEALS

PETITION FOR WRIT OF CERTIORARI

TO THE HONORABLE JUSTICES OF THE SUPREME COURT OF THE
UNITED STATES:
Petitioner, Kristopher Love, respectfully petitions for a writ of certiorari to
review the judgement of the Texas Court of Criminal Appeals in this case.
OPINIONS BELOW
The opinion of the highest state court, the Texas Court of Criminal Appeals, to
review the merits appears at Appendix A. The opinion petition in Cause No. AP77,085 was delivered on April 14, 2021 and is unpublished.

JURISDICTION
The judgement/mandate of the Texas Court of Criminal Appeals was entered on
May 10, 2021. The jurisdiction of this Court is invoked under 28 U.S.C. ยง 1257(a)
and ninety days has not elapsed.
STATEMENT OF THE CASE
PROCEDURAL HISTORY
Petitioner was charged in the 363rd District Court of Dallas County, Texas, in
trial court cause number Fl 5-76400-W with the capital murder of shooting
KENDRA HATCHER with a firearm in the course of committing and attempting to
commit the offense of the robbery of the deceased. The jury found the Defendant
guilty of capital murder. (RR: Vol. 40 p. 47)
On October 31, 2018 the jury answered Special Issue No. 1 "Do you find from
the evidence beyond a reasonable doubt that there is a probability that the Defendant
Kristopher Love would commit criminal acts of violence that would constitute a
continuing threat to society", as "Yes." The jury answered Special Issue No.2 "Do
you find from the evidence, taking into consideration all the evidence, including the
circumstances of the offense, the defendant's character and background, and the
personal moral culpability of the defendant, Kristopher Love, that there is a
sufficient mitigating circumstance or circumstances to warrant a sentence of life
imprisonment rather than a death sentence be imposed" as "No." (Reporter's Record
2

Vol. 43 p. 94) In accordance with the previous verdict of guilty and answers to the
special issues, the trial court entered a judgment and assessed Appellant's
punishment at death. (Reporter's Record Vol. 43 p. 94)
On November 1, 2018 Appellant timely filed a Motion for New Trial that was
subsequently denied by the court. (Clerk's Record P. 352). Notice of appeal was
filed even though appeal to the Texas Court of Criminal Appeals was automatic. See
Tex. Code Crim.Proc.Ann. art. 37.071,ยง 2(g)(Vernon Supp. 2001).
FACTS RELEVANT TO THE QUESTIONS RAISED IN THIS
APPLICATION FOR WRIT OF CERTIORARI
SUMMARY OF VOIR DIRE OF VENIRE PERSON
NO. 1136-B, ZACHARY NIESMAN
Defense Counsel challenged the juror for cause (Reporter's Record Volume 29
page 153) as follows:
MR. JOHNSON:

First and foremost, we feel that a definite exclusion for

this juror for cause is his stated beliefs that he recalls that - - his reading and being
taught that non-whites commit more violent crimes than whites. I talked to him
about that. It concerned me quite a bit, and I talked to him about the fact that I've
seen studies that were the opposite.
And - - but as in our earlier discussions of his beliefs, that statistics show that
the death penalty has been proven to be a deterrent. I said, What if you saw statistics
3

that showed the opposite and that that was wrong? And his response was, I'm still
going to feel the way I feel. So it would certainly - - leaving this man on the jury
would be an invitation to leaving someone on there that might make a decision on
Special Issue No. 1 that would ultimately lead to a sentence of death on his
preconceived notions and beliefs that have to do with the race of the defendant. And
I think that is certainly inviting all kinds of danger and harm and prejudice to the
defendant. We would challenge him for cause based upon that basis.

A review the voir dire questioning the of the juror shows that:
. . . . Mr. Niesman answered the statement "The best argument for the death
penalty is some crimes are so heinous and evil that the murderer does not deserve to
still live." (Juror Questionnaire p. 3) When asked by the State to explain his answer,
he said "I think is can deter people from committing similar offenses. I think some
people are not able to be rehabilitated from their state and don't deserve to keep on
living if they've taken a life that, by all accounts, is innocent." (RR: Vol. 29 p.p. 7677)
He stated that if he were governor he would keep the death penalty and use it on
these types of crimes, "Premeditated, extremely heinous crimes, repeat offenders,
serial killers. I guess crimes that target people that are innocent with no obvious

motive." (RR: Vol. 29 p. 77) He answered "Yes" to the statement concerning
murder in the course of committing or attempting to commit the offense of robbery is
a capital offense for which the death penalty can be imposed. (Juror Questionnaire p.
3) He explained his answer "Someone with no regard for human life that can kill
another for the sake of greed might not be able to exist in civilized society. (Juror
Questionnaire p. 3) He also agreed that some crimes call for the death penalty solely
because of their severe facts and circumstances,, regardless of whether or not the
guilty person has committed prior violent cases. (Juror questionnaire p. 3) Mr.
Neisman believed in "an eye for an eye", but did not explain his answer. (Juror
Questionnaire p. 3)
Mr. Neisman answered "Somewhat agree" to the statement "A convicted capital
murderer's accomplishments or good deeds during his life should not matter in
deciding whether he should get the death penalty. (Juror Questionnaire p. 5) He also
thought the testimony of police officers was more believable than most witnesses.
(Juror Questionnaire p. 5) He further agreed with the statement "If the police charge
someone with a crime, he/she is probably guilty.55
Mr. Neisman answered "yes" to the question "Do you believe that some races
and/or ethnic groups tend to be more violent than others?55 (Juror Questionnaire p.
12) He wrote that "Statistics show more violent crimes are committed by certain

races. I believe in statistics." (Juror Questionnaire p. 12) When defense counsel
asked him "What kind of statistics have you seen that would indicate that to you?",
he replied "news reports and criminology classes I've taken." (RR: Vol. 29 p. 144)
When asked which races were more violent, he replied ccNon-white." (RR: Vol. 29 p.
145) The Defendant is a person of the black race. The juror wrote on the juror
questionnaire that "Statistics show more violent crimes are committed by certain
races. I believe in statistics."
The defense had exhausted all of its allowed peremptory challenges allowed by
the State of Texas in death penalty cases. The trial court denied Defendant's request
for an additional peremptory challenge and denied the defense challenge for cause.
Mr. Niesman was seated as Juror No. 12. (RR: Vol. 29 p.154-155)

REASONS FOR GRANTING THE WRIT
This Court should grant certiorari to determine whether the Texas Court of
Criminal Appeals, the only court of appeal in a death penalty case can allow a
racially prejudiced juror to be placed on a jury over the defense's challenge for cause
thereby denying Petitioner his Sixth amendment right to a fair trial by an
unconstitutionally selected jury and due process of law in violation of the Fourteenth
Amendment. Petitioner submits that this issue is sufficiently important in terms of its
nationwide relevance or impact of having a racially biased white juror on a death

penalty jury, where the defendant is of the black race in today's racially charged
environment.
Petitioner was tried before an unconstitutionally qualified jury composed of
individuals at least one if not two of which were properly challenged for cause.
In Ramos v. Louisiana, 140 S.Ct. 1300 (2020) it was stated that "The Constitution's
text and structure clearly indicate that the Sixth Amendment term 'trial by an
impartial jury' carries with it some meaning about the comment and requirements of
a jury trial."
The imperative to purge racial prejudice from the administration of justice was
given new force and direction by the ratification of the Civil War Amendments. "The
central purpose of the Fourteenth Amendment was to eliminate racial discrimination
emanating from official sources in the States." McLaughlin v. Florida, 379 U.S. 184,
192, 85 S.Ct. 283, 13 L.Ed. 222. Time and again, this Court has enforced the
Constitution's guarantee against state-sponsored racial discrimination in the jury
system.
The unmistakable principle of these precedents is that discrimination on the
basis of race, "odious in all aspects, is especially pernicious in the administration of
justice," Rose v. Mitchell, 443 U.S. 545, 555, 99 S.Ct. 2993, 61 L.Ed.2d 739,
damaging "both the fact and the perception" of the jury's role as "a vital check
7

against the wrongful exercise of power by the State/5 Powers v, Ohio, 499 U.S. 400,
411, 111 S.Ct 1364, 113 LJBd.2d4311. Pp 867-868.
Racial bias, a familiar and recurring evil that, if left unaddressed, would risk
systemic injury to the administration of justice. This Court's decisions demonstrate
that racial bias implicates unique historical, constitutional, and institutional
concerns. An effort to address the most grave and serious statements of racial bias is
not an effort to perfect the jury but to ensure that our legal system remains capable of
coming every closer to the promise of equal treatment under the law that is so central
to a functioning democracy.
Racial bias is distinct in a pragmatic sense as well. In past cases this Court has
relied on other safeguards to protect the right to an impartial jury. Some of those
safeguards, to be sure, can disclose racial bias. Voir dire at the outset of trial,
observation of juror demeanor and conduct during trial, juror reports before the
verdict, and nonjuror evidence after trial are important mechanisms fo discovering
bias. Yet their operation may be compromised, or they may prove insufficient. For
instance, this Court has noted the dilemma faced by trial court judges and counsel in
deciding whether to explore racial bias at voir dire. See Rosales-Lopez, supra;
Ristaino v. Ross, 424 U.S. 589, 96 S.Ct. 1017, 47 L.Ed.2d 258 (1976). Generic
questions about juror impartiality may not expose specific attitudes or biases that can

poison jury deliberations, Yet more pointed questions "could well exacerbate
whatever prejudice might exist without substantially aiding in exposing it." ResalesLopez, supra, at 195, 101 S.Ct. 1629 (Rehnquist J., concurring in result).
All forms of improper bias pose challenges to the trial process. But there is a
sound basis to treat racial bias with added precaution. A constitutional rule that racial
bias in the justice system must be addressed-including, in some instances, after the
verdict has been entered is necessary to prevent a systemic loss of confidence injury
verdicts, a confidence that is a central premise of the Sixth Amendment trial right.
This Court wrote in Turner v. Murray, 106 S.Ct. 1683 (1986) :
Because of the range of discretion entrusted to a jury in a capital sentencing
hearing, there is a unique opportunity for racial prejudice to operate but remain
undetected. On the facts of this case, a juror who believes that blacks are violence
prone or morally inferior might well be influenced by that belief in deciding whether
petitioner's crime involved the aggravating factors specified under Virginia law.
Such a juror might also be less favorably inclined toward petitioner's evidence of
mental disturbance as a mitigating circumstance. More subtle, less consciously held
racial attitudes could also influence a juror's decision in this case. Fear of blacks,
which could easily be stirred up by the violent facts of petitioner's crime, might
incline a juror to favor the death penalty.

The risk of racial prejudice infecting a capital sentencing proceeding is
especially serious in light of the complete finality of the death sentence. "The Court,
as well as the separate opinions of a majority of the individual Justices, has
recognized that the qualitative difference of death from all other punishments
requires a correspondingly greater degree of scrutiny of the capital sentencing
determination." California v. Ramos, 463 U.S. 992, 998-999, 103 S.Ct. 3446, 77
L.Ed.2d 1171 (1983), We have struck down capital sentences when we found that
the circumstances under which they were imposed "created an unacceptable risk that
cthe

death penalty [may have been] meted out arbitrarily or capriciously' or through

'whim ... or mistake.' " Caldwell, supra, at 343, 105 S.Ct, at 2647 (O'CONNOR, I,
concurring in part and concurring in judgment) (citation omitted). In the present
case, we find the risk that racial prejudice may have infected petitioner's capital
sentencing unacceptable in light of the ease with which that risk could have been
minimized. By refusing to question prospective jurors on racial prejudice, the trial
judge failed to adequately protect petitioner's constitutional right to an impartial jury.
In Pena Rodriguez v. Colorado, 137 S.Ct. 855 (2017) this Court wrote:
The imperative to purge racial prejudice from the administration of justice was
given new force and direction by the ratification of the Civil War Amendments.
"[T]he central purpose of the Fourteenth Amendment was to eliminate racial
10

discrimination emanating from official sources in the States." McLaughlin v.
Florida, 379 U.S. 184, 192, 85 S.Ct. 283, 13 L.Ed.2d 222. Time and again, this
Court has enforced the Constitution's guarantee against state-sponsored racial
discrimination in the jury system. The Court has interpreted the Fourteenth
Amendment to prohibit the exclusion of jurors based on race, Strauder v. West
Virginia, 100 U.S. 303, 305-309, 25 L.Ed. 664; struck down laws and practices that
systematically exclude racial minorities from juries, see, e.g., Nealv. Delaware, 103
U.S. 370, 26 L.Ed. 567; ruled that no litigant may exclude a prospective juror based
on race, see, e.g., Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69;
and held that defendants may at times be entitled to ask about racial bias during voir
dire, see, e.g., Ham v. South Carolina, 409 U.S. 524, 93 S.Ct. 848, 35 L.Ed.2d 46.
The unmistakable principle of these precedents is that discrimination on the basis of
race, "odious in all aspects, is especially pernicious in the administration of justice,"
Rose v. Mitchell, 443 U.S. 545, 555, 99 S.Ct. 2993, 61 L.Ed.2d 739, damaging "both
the fact and the perception" of the jury's role as "a vital check against the wrongful
exercise of power by the State," Powers v. Ohio, 499 U.S. 400, 411,111 S.Ct. 1364,
113 L.Ed.2d 411. Pp. 867 - 868.
Texas Article 35.16 Code of Criminal Procedure provides for the reasons for a
challenge for cause by either the State or Defense. Art. 35.16(9) states: "That the
11

juror has a bias or prejudice in favor or against the defendant.55 The juror in this case
by Texas law could not be rehabilitated.
In Anderson v. State 633 S.W.2d 851 (Tex,. Grim. App. 1982) it was held that
when a prospective juror is shown to be biased as a matter of law, he or she must be
excused when challenged even if she states he can set his or her bias aside and
provide a fair trial. See also Brandon v. State, 599 S.W. 2d 567 (Tex. Grim. App.
1979) and Williams v. State, 565 S.W.2d 63 (Tex. Grim, App. 1978)
Petitioner submits first that venireperson Niesman disqualified himself as a
matter of law when he testified in voir dire that "yes" he believed that some races
and/or ethnic groups tend to be more violent than others and that "Statistics show
more violent crimes are committed by certain races." "I believe in statistics." The
statistical source he relied upon were news reports and criminology classes. He said
"non-whites" were more violent.
Petitioner was denied the constitutional right to an impartial jury. In United
States v. Martinez-Salazar, 528 U.S. 304 (2000) this Court reiterated that reversal
would be required when a biased juror is seated after the trial court erroneously
overruled an objection that the juror should be excused for cause as in the case at
bar. Faretta v. California, 422 U.S. 806 95 S.Ct. 2525, 45 L.Ed.2d. 562 (1977) This
Court has also said that the right to an impartial adjudicator be it judge or jury is
12

among the constitutional rights that can never be treated as harmless error. In an
effort to ensure that individuals who sit on juries are free of racial bias, it has been
held that the constitution at times demands that defendants be permitted to ask
questions about racial bias during voir dire. See Pena Rodriguez v, Colorado, 137
S.Ct. 855 (2017). In this case Petitioner was not denied the opportunity to ask
questions about racial bias, but once the defense established racial bias, the defense's
challenge for cause based on racial bias was denied allowing a racially biased juror
against cnon whites' to sit on the jury.
The juror's questionnaire shows that prospective juror is of the white race while
the Defendant is of the black race. Petitioner's Sixth and Fourteenth amendment
rights were violated by the trial court's ruling denying the defendant's challenge for
cause as to this racially biased juror and by the Texas Court of Criminal Appeals that
held that he was tried by a constitutionally qualified jury; contrary to decisions of
this Honorable Court.

13

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
John Tatum, Attorney for Petitioner
8411 Walnut Hill Lane
Suite 1190
Dallas, Texas 75032
(972) 705-9200
Fax #: (972) 690-9901
State Bar No. 19672500

14

